BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Reply Brief for Petitioners in 19-1008, Jim C.
Hodge, et al. v. United States of America, was sent via
Next Day Service to the U.S. Supreme Court, and 3
copies were sent via Next Day Service and e-mail to
the following parties listed below, this 8th day of June,
2020:
Noel Francisco
Solicitor General of the United States
Room 5616
DEPARTMENT OF JUSTICE
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001
(202) 514-2217
SupremeCtBriefs@USDOJ.gov
Counsel for Respondent
David Alan Warrington
Counsel of Record
KUTAK ROCK LLP
901 East Byrd Street
Suite 1000
Richmond, Virginia 23219
(202) 828-2437
david.warrington@kutakrock.com
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001

I www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on June 8, 2020.

Donna J. W
Becker Gallagher Legal u lishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

C

)wtc._ t J-o d[)

Notaryc t~c(].
[seal]

-~«tJ~
I

